           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

    SAFE HAVEN, A FEE-FOR-SERVICE
    REPRESENTATIVE PAYEE FOR THE
   SOCIAL SECURITY ADMINISTRATION

    September 2010   A-07-10-21062




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      September 21, 2010                                                                      Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
            Kansas City

From:      Inspector General

Subject:   Safe Haven, A Fee-for-Service Representative Payee for the Social Security
           Administration (A-07-10-21062)


           OBJECTIVE
           Our objectives were to determine whether Safe Haven (1) used and accounted for
           Social Security benefits in accordance with Social Security Administration (SSA)
           policies and procedures, (2) had effective safeguards over the receipt and disbursement
           of Social Security benefits, and (3) adequately protected the beneficiaries’ personally
           identifiable information (PII).

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because of
           their youth or mental and/or physical impairments. Congress granted SSA the authority
           to appoint representative payees to receive and manage these beneficiaries’ payments
           from the Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental
           Security Income (SSI) programs. 1 A representative payee may be an individual or an
           organization. SSA’s regulations indicate the Agency will select representative payees
           for beneficiaries when representative payments would serve the individuals’ interests. 2
           Representative payees are responsible for managing benefits in the best interest of the
           beneficiary. 3 See Appendix B for additional representative payee responsibilities.




           1
               Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
           2
               20 C.F.R. §§ 404.2001 and 416.601.
           3
             Id. Also, we use the term “benefits” to refer to OASDI benefits and SSI payments. Likewise, we use the
           term “beneficiaries” to refer to OASDI beneficiaries and SSI recipients.
Page 2 – Michael W. Grochowski

Safe Haven is a fee-for-service organization with five employees, including a Director,
and is located in Scottsbluff, Nebraska. The representative payee is a nonprofit social
service agency that received payments under SSA’s OASDI and SSI programs on
behalf of 396 beneficiaries. SSA’s Kansas City Regional Office requested this audit.
See Appendix C for the scope and methodology of our review.

RESULTS OF REVIEW
Our audit period was from October 1, 2008 to September 30, 2009. We found that,
during this time, Safe Haven had the appropriate safeguards to secure beneficiaries’
personal and financial information. Further, Safe Haven had effective safeguards over
the receipt of Social Security benefits. However, we found that Safe Haven:

•   Did not use and account for Social Security benefits in accordance with SSA’s
    policies and procedures. Safe Haven operated as a conduit payee for over half the
    50 SSA beneficiaries we reviewed. 4 Also, Safe Haven had inadequate internal
    controls related to SSI resource limits, conserved funds, interest-bearing accounts,
    representative payee fees, and representative payee reporting.

•   Did not have effective safeguards over the disbursement of Social Security benefits.
    Specifically, Safe Haven did not have adequate bond coverage, maintain receipts
    supporting all expenditures, or adequately segregate duties when disbursing
    beneficiaries’ funds.

•   May not have been meeting the needs of some beneficiaries.

USE AND ACCOUNTING FOR BENEFITS
We found that Safe Haven did not use and account for Social Security benefits in
accordance with SSA’s policies and procedures. Specifically, Safe Haven

•   operated as a conduit payee for over half the 50 SSA beneficiaries we reviewed,

•   failed to adequately monitor and effectively manage SSI recipients’ resources,

•   failed to timely return conserved funds for 38 beneficiaries who were no longer under
    its care,

•   failed to place conserved funds in interest bearing accounts,

•   charged SSA beneficiaries unallowable representative payee fees, and



4
 A conduit payee turns over the full amount of the SSA benefit to the beneficiary or another person, such
as a care facility. SSA, POMS, GN 00608.044.B and GN 00605.067.D.1.
Page 3 – Michael W. Grochowski

•     reported inaccurate beneficiary information on the SSA Representative Payee
      Reports.

Conduit Payee

From our sample of 50 beneficiaries, we found that Safe Haven operated as a conduit
payee for 26 beneficiaries. These beneficiaries lived in care facilities, which included
nursing homes, assisted living facilities, and room and board facilities. A conduit payee
does not exercise control over the benefits and cannot fully account for how the benefits
are spent. 5

For the 26 beneficiaries, Safe Haven turned over the full amount of the SSA benefits –
less its payee fees – to the care facilities. As a conduit payee, Safe Haven did not
control how the beneficiaries’ personal allowances were used by the care facilities. For
example, Safe Haven did not collect cash ledgers and receipts from the care facilities to
account for the expenses as required by SSA’s instructions. 6

Since Safe Haven operated as a conduit payee for over half the SSA beneficiaries in
our sample, it is possible that Safe Haven also operated as a conduit payee for other
SSA beneficiaries who lived in care facilities. In fact, during the audit period, Safe
Haven was managing funds for approximately 255 SSA beneficiaries who lived in care
facilities.

SSI Resources

We identified seven beneficiaries who incurred $22,926 in overpayments by exceeding
the SSI resource limit during our audit period. This occurred because Safe Haven did
not have adequate internal controls to monitor SSI recipients’ accounts.

Furthermore, during our audit, Safe Haven identified an additional 11 SSI recipients who
exceeded the SSI resource limit resulting in overpayments totaling $36,630. We did not
confirm the results of Safe Haven’s review.

SSI overpayments occur when (1) a recipient’s resources exceed the allowable
resource limit because of changes in the recipient’s circumstances that affect eligibility
for benefits 7 or (2) the representative payee is improperly conserving benefits by not


5
    SSA, POMS, GN 00605.067.D.1.
6
 SSA, POMS, GN 00602.001.B; GN 00605.067.D.1 and D.3; GN 00605.420.C.14a; SSA, A Guide for
Organizational Representative Payees (No. 17-013), p. 10.
7
  The resource limit for SSI recipients is $2,000 for an individual and $3,000 for a married couple. See
20 C.F.R. § 416.1205(c), and SSA, POMS, SI 01110.003.A.2. Changes in a beneficiary’s circumstances
that affect eligibility for benefits include new living arrangements, marriage, divorce, incarceration, and
employment earnings. See 20 C.F.R. §§ 416.635(d) and 416.708; SSA, POMS, GN 00502.113.C.1.
Page 4 – Michael W. Grochowski

spending the funds on the recipient’s current and foreseeable needs. 8 The
representative payee is responsible for informing SSA about changes in a recipient’s
circumstances and when the recipient’s resources exceed the allowable limit. 9

During our audit, Safe Haven instituted new procedures to monitor the beneficiaries’
ledgers for resources exceeding the allowable limit. Safe Haven now sends a monthly
report to SSA with the names of recipients whose resources are nearing or have
exceeded the SSI resource limit. We verified that SSA receives these reports.
However, we did not review the monthly lists to ensure that the procedures are
identifying all recipients who exceed the SSI resource limit.

Conserved Funds

We identified 2 beneficiaries in our sample of 50 whose conserved funds, 10 totaling
$2,655, were retained by Safe Haven for 5 and 6 months, respectively, after the
beneficiaries left its care. This occurred because Safe Haven did not have procedures
in place to return conserved funds to SSA timely when its payee services ended.

During our audit, Safe Haven reviewed the accounts for beneficiaries who were no
longer under its care. This review identified conserved funds totaling $24,890 for
47 beneficiaries, including the 2 beneficiaries we identified. 11 We confirmed that Safe
Haven returned the $24,890 to SSA. 12 However, these conserved funds were not
returned to SSA for an average of 20 months after the beneficiaries were no longer
under Safe Haven’s care. In fact, 15 beneficiaries left Safe Haven’s care before 2008,
and Safe Haven retained their conserved funds, totaling $9,776, for an average of
4 years.

To ensure that Safe Haven’s review identified all beneficiaries with conserved funds
who were no longer under its care, we reviewed Safe Haven’s financial records to
determine whether funds were being retained for other SSA beneficiaries who had left
Safe Haven’s care. We identified an additional 38 beneficiaries no longer under Safe
Haven’s care, including 16 deceased beneficiaries, with conserved funds. The
38 beneficiaries had conserved funds totaling $39,302.


8
    SSA, POMS, GN 00602.130.A and GN 00603.001.B.2.
9
 20 C.F.R. §§ 416.708 and 416.1205(c); SSA, POMS, SI 01110.003.A.2 and GN 00502.113.C.1; SSA, A
Guide for Representative Payees (No. 05-10076), pp. 16-17, January 2009.
10
  Conserved funds are the benefits remaining (or saved) after the immediate or reasonably foreseeable
needs of the beneficiary are met. See SSA, POMS, GN 00603.001.A.
11
     Checks sent to SSA were dated from October 26, 2009 through January 8, 2010.
12
  Two of the 47 beneficiaries were deceased—1 beneficiary died in 2004 and the other died in 2009.
Therefore, Safe Haven should have returned the conserved funds to the legal representative of the
beneficiary’s estate instead of SSA as required by SSA, POMS, GN 00603.100.B.2.
Page 5 – Michael W. Grochowski

For a beneficiary who is deceased, SSA requires that the representative payee send
conserved funds to the beneficiary’s estate. 13 For a beneficiary with a successor payee,
SSA requires that the representative payee return conserved funds to SSA after a
representative payee’s service to a beneficiary ends. SSA then reissues the conserved
funds to the successor payee so the beneficiary’s needs can continue to be met. 14
Although SSA does not specify a time period in which to return conserved funds,
retaining funds belonging to SSA beneficiaries prevented SSA from timely reissuing the
funds to the new representative payees so the beneficiaries’ needs could be met.

Non-Interest Bearing Collective Account

Safe Haven’s collective account is a non-interest bearing account. SSA requires that
the representative payee with a collective account place a beneficiary’s conserved
funds in excess of $500 in an interest-bearing account or other investment that is
relatively free of risk.15 For 36 of the 50 beneficiaries in our sample, Safe Haven had
not placed their conserved funds in an interest-bearing account, although their
conserved funds exceeded $500. In fact, 25 of the 36 had over $1,000 of conserved
funds in their accounts.

Representative Payee Fees

We found that Safe Haven charged 11 of the 50 beneficiaries in our sample unallowable
representative payee fees totaling $2,031. 16 SSA approved Safe Haven to collect a fee
for its payee services equal to the lesser of 10 percent of the beneficiary’s monthly
payment or $37. 17 However, we found the following.

•     Eight beneficiaries were charged $1,365 over the allowable monthly fee to
      compensate for prior months when the full fee was not charged. For example, a
      beneficiary was not charged a fee in a month when Safe Haven considered the
      beneficiary’s account funds too low. However, in a following month Safe Haven
      collected a double fee—$74 instead of $37. SSA prohibits the practice of using the
      benefits from a following month to make up for past uncollected fees. 18

13
     SSA, POMS, GN 00603.100.B.2.
14
  SSA, POMS, GN 00605.370.A, GN 00603.055.A, GN 00502.113.C.1; SSA, A Guide for Representative
Payees (No. 05-10076), p. 19, January 2009.
15
     SSA, POMS, GN 00603.020.B.1.c.
16
  We originally identified unallowable fees of $2,142. However, Safe Haven returned $111 to one
beneficiary in November 2009.
17
  SSA, POMS, GN 00506.200.A and C.2. During our audit period, Safe Haven was allowed to charge
$35 per month for October and November 2008 and $37 per month from December 2008 to
September 2009.
18
     SSA, POMS, GN 00506.210.A.1.
Page 6 – Michael W. Grochowski

•     One beneficiary did not receive SSA funds for 2 months, but Safe Haven charged
      the fees totaling $74. SSA prohibits a representative payee from charging a fee
      when the beneficiary does not receive a monthly SSA payment. 19

•     One beneficiary was charged a fee of $130 instead of the $37 allowable resulting in
      a $93 overcharge. The $130 included a $10 representative payee fee and a
      $120 guardianship fee. SSA prohibits a representative payee from charging both
      fees if the total monthly fee collected exceeds the $37 allowed by SSA. 20

•     One beneficiary received Veterans Affairs (VA) benefits in addition to SSA benefits.
      Safe Haven received permission from VA to collect a 4-percent fee per month on the
      VA benefits only. However, Safe Haven’s practice was to total all benefits received
      in a month, including the SSA benefits, and calculate the 4-percent fee. Therefore,
      the fee was computed incorrectly, and Safe Haven overcharged the beneficiary
      $499 during the audit period. The 4 percent applied to non-VA benefits is not
      allowable. 21

SSA requires that a representative payee use benefits to meet a beneficiary’s current
and foreseeable needs. Any other use of benefits, such as unauthorized fees charged
by the representative payee, may constitute misuse of benefits.

Representative Payee Reports

We found that Safe Haven inaccurately reported the representative payee fees charged
to some beneficiaries on the SSA Representative Payee Reports. We examined
21 reports and found that Safe Haven underreported the fees it collected by at least
$845 for 7 beneficiaries. A representative payee’s duties include keeping detailed and
accurate records of how benefits are used to provide an accurate report to SSA. 22 SSA
uses this information to assist in determining the representative payee’s continued
suitability to be a payee and the beneficiary’s need for representative payment. 23

We also found inaccuracies in the reporting of other expenses on the Representative
Payee Reports. 24 Other expenses include the beneficiary’s personal allowance and
specific disbursements the representative payee makes for clothing, education, medical,
dental, recreation, and personal items. The required minimum expenditure on these

19
     SSA, POMS, GN 00506.220.A.
20
     SSA, POMS, GN 00602.040 and GN 00506.220.A.
21
     SSA, POMS, GN 00506.220.A.
22
   SSA, POMS, GN 00502.113.C.1 and D.3.b; SSA, A Guide for Representative Payees (No. 05-10076),
p. 14, January 2009.
23
     SSA, POMS, GN 00605.001.B.1.
24
     The overlap of the audit period with the dates of the report period was from 1 to 11 months.
Page 7 – Michael W. Grochowski

items was $30 per month or $360 per year. 25 We found that Safe Haven reported the
required minimum expenditure of $360 on 9 of the 21 reports. When we examined the
actual expenditures for the nine beneficiaries—all of whom lived in care facilities—we
found widely differing amounts ranging from $90 to $1,365. We concluded that Safe
Haven did not track the actual expenditures and intentionally chose to report $360 on
the payee reports regardless of the actual expenditures.

SAFEGUARDS FOR THE DISBURSEMENT OF BENEFITS
Our review determined that Safe Haven did not have adequate bond coverage to
protect against theft, did not maintain supporting receipts for all expenditures, and did
not have adequate segregation of duties in the disbursement of beneficiaries’ funds.

Bond Coverage

We found that Safe Haven did not have adequate bond coverage to protect the
representative payee, SSA, and the beneficiaries from financial loss because of theft.
During our audit period, Safe Haven was insured for $500,000. However, per SSA
policy, the minimum coverage must equal the amount of beneficiaries’ conserved funds
on hand plus the average monthly amount of Social Security payments received by the
organization. 26 In mid-October 2009, we determined that $667,696 in conserved funds
was on hand, and the average monthly amount of Social Security payments received by
Safe Haven during the audit period was $240,409. Therefore, Safe Haven had an
uninsured balance of $408,105. 27

Receipts and Other Supporting Documentation

For the 50 beneficiaries in our sample, we found Safe Haven did not maintain receipts
and other documentation to support how 20 percent of the total expenditure of
beneficiaries’ funds was spent. 28 Specifically, of the $437,094 expended during the
audit period for the 50 beneficiaries we reviewed, Safe Haven did not have receipts or
other supporting documentation for $85,256. For the $85,256 not supported by
documentation, we examined Safe Haven’s ledgers and canceled checks to identify the
purpose of the expenditures. The ledgers and canceled checks provided expense
information for what appeared to be legitimate purposes, such as rent, food, utilities,



25
     SSA, POMS, GN 00602.010.B.2 and B.3, and GN00605.067.F and G.
26
     SSA, POMS, GN 00506.105.C.5.
27
   We computed the uninsured balance by adding the $667,696 conserved funds on hand to the
$240,409 average monthly Social Security payments less the $500,000 currently insured amount for a
total of $408,105.
28
   Missing documentation included lease agreements, care facility agreements, and receipts for personal
allowances, specific personal needs, and other expenses.
Page 8 – Michael W. Grochowski

and other items. Although we cannot confirm how the funds were actually expended
without receipts and supporting documentation, nothing came to our attention during our
examination of the ledgers and canceled checks that led us to believe the expenditures
were not for the beneficiaries’ needs.

Inadequate documentation for beneficiaries’ personal allowances and specific needs
was of particular concern. We found that $20,710 (64 percent) of the $32,357 provided
directly to the beneficiaries and care facilities had no documentation to support the
expenditures. According to SSA, the payee is responsible for keeping accurate and
complete records to show how benefits are used. 29 This includes the beneficiaries’
personal allowances. The representative payee should control and maintain the
appropriate ledger and receipts for these expenses. Maintenance of this documentation
is a safeguard the representative payee must have in place for all expenditures,
regardless of the monetary value, to show that Social Security benefits were spent for
the beneficiaries’ needs. 30

Segregation of Duties

Safe Haven did not have adequate segregation of duties in the disbursement of Social
Security funds. Specifically, the same employee who authorized a check also recorded
the expenditure in the ledger and printed the check. In addition, before a check was
issued to a vendor, there was no verification that documentation supported the
expenditure or that the check accurately reflected the correct amount and vendor.

No one person should control all aspects of financial transactions.31 Adequate
segregation of duties ensures that key duties and responsibilities are divided among
different people to reduce the risk of error, misuse, and/or fraud. The limited number of
Safe Haven staff may make total segregation of duties difficult, but compensating
controls could be instituted. For example, key financial transaction duties can be
divided among two or more employees.




29
     SSA, POMS, GN 00502.113.C.1 and D.3.b.
30
  SSA regulations indicate that representative payees must account for the use of benefits, should keep
records of how benefits were used to complete accounting reports, and must make those records
available upon SSA’s request. 20 C.F.R. §§ 404.2065 and 416.665.
31
   Government Accountability Office, Standards for Internal Control in the Federal Government,
AIMD-00-21.3.1, pp. 12, 14; SSA, Best Practices for Maintaining an Effective Representative Payee
Accounting System, “Separation of Employee Duties,” http://www.ssa.gov/payee/best.htm; SSA, A Guide
for Organizational Representative Payees (No. 17-013), p. 34.
Page 9 – Michael W. Grochowski

MEETING THE NEEDS OF BENEFICIARIES
We found Safe Haven may not have been meeting the needs of some beneficiaries.
Specifically, of the 10 beneficiaries we interviewed, 2 beneficiaries informed us that
Safe Haven was not sending sufficient funds for them to purchase food and other
needed items, and Safe Haven was not routinely meeting with 4 beneficiaries to
determine their current and foreseeable needs. In addition, of the 50 beneficiaries in
our sample, Safe Haven did not spend the required $360 per year for 3 beneficiaries in
care facilities.

Beneficiary Needs

Of the 10 beneficiaries we interviewed, 2 told us that Safe Haven had refused their
requests to send the money necessary for them to purchase food and other needed
items.

•     One beneficiary was 79 years old and lived alone in her home, which we observed
      was in need of paint and repairs. The beneficiary told us her food allowance was not
      enough to purchase what she needed for groceries and other necessary items. She
      requested more funds from Safe Haven but was refused. As of September 2009,
      according to Safe Haven’s records, the beneficiary had $1,537 in conserved funds.

•     The other beneficiary was 58 years old and married with two children. The
      beneficiary told us that his weekly food allowance was not enough to feed his family.
      He requested more funds from Safe Haven but was refused. As of September 2009,
      according to Safe Haven’s records, he had $2,267 in conserved funds. In addition,
      because Safe Haven allowed him to exceed the SSI resource limit, this beneficiary
      incurred overpayments from December 2008 through June 2009 totaling $810. 32

SSA requires that the representative payee provide for the beneficiary’s needs, such as
food, housing, clothing, medical care, and personal comfort items.33 SSA also prohibits
the representative payee from improperly conserving funds leaving beneficiaries with
current unmet needs.34




32
  On April 15, 2010, we referred the names of these two individuals to the Kansas City Regional
Commissioner for appropriate action in determining whether the needs of these beneficiaries are being
met. The Regional office responded that one beneficiary now has a new representative payee and the
other beneficiary is managing his own funds.
33
     SSA, POMS, GN 00602.001.A.2.
34
     SSA, POMS, GN 00602.130.A.
Page 10 – Michael W. Grochowski

Beneficiary Visits

Of the 10 beneficiaries we interviewed, we found that Safe Haven had visited
6 beneficiaries at least once in the past year. However, Safe Haven had not visited the
remaining four beneficiaries in several years. Specifically,
•     one beneficiary, living on her own, had not been visited in 2 years;
•     one beneficiary, living on his own, had not been visited in 3 years; and
•     two beneficiaries, one living on her own and one living in a State institution, had not
      been visited in 5 years.

SSA requires that a representative payee regularly meet with the beneficiary to
ascertain the beneficiary’s current and foreseeable needs, although SSA does not
specify how often the representative payee should meet with the beneficiary. 35 When
we interviewed the Director of Safe Haven, she stated that she tried to visit each
beneficiary at least once per year.

Personal Allowances

In our sample of 50 beneficiaries, we found the representative payee did not spend the
required $360 per year on 3 beneficiaries living in care facilities. Specifically, one
beneficiary received $90, another beneficiary received $100, and a third beneficiary
received $165. Other than expenses for care and maintenance, SSA requires that the
representative payee spend a minimum of $30 a month on goods and services for the
individual’s benefit. These items include clothing, special medical expenses or
equipment (such as hearing aids or eyeglasses), room furnishings, personal articles,
recreational items, and magazine subscriptions. 36

Safe Haven stated that these three beneficiaries lived in nursing homes that limited the
amount of personal spending money they would hold on the beneficiaries’ behalf.
When the balance exceeds this limit, the facilities requested Safe Haven stop sending
the personal allowance money.

As a conduit payee for these three beneficiaries, Safe Haven relinquished the
responsibility to the care facility of meeting the needs of the beneficiaries, including the
expenditure of beneficiaries’ personal allowances. In doing so, Safe Haven did not
know whether these beneficiaries needed personal allowance items which the care
facility did not provide. Regardless, it is the representative payee’s duty to ascertain the
beneficiaries’ current and foreseeable needs and to spend at least $360 a year on these
needs. If it is not possible to spend the required $360, the representative payee should
document the circumstances and inform SSA. 37

35
     SSA, POMS, GN 00502.113.C.1.
36
     SSA, POMS, GN 00602.010.B.2 and B.3, and GN 00605.067.F and G.
37
     SSA, POMS, GN 00605.067.G.
Page 11 – Michael W. Grochowski

CONCLUSION AND RECOMMENDATIONS
We found that the representative payee did not use and account for Social Security
benefits in accordance with SSA’s policies and procedures and did not effectively
safeguard the disbursement of Social Security benefits. We also found that the
representative payee may not have met the needs of some beneficiaries.

We recommend that SSA

1. Refrain from placing additional beneficiaries with Safe Haven until the representative
   payee has implemented corrective actions to ensure Social Security benefits are
   properly used and accounted for, the disbursement of Social Security benefits is
   safeguarded, and the needs of beneficiaries are being met. If these corrective
   actions are not implemented timely, SSA should place this representative payee’s
   beneficiaries with a new representative payee.

2. Review Safe Haven’s management of SSA benefits for the 255 beneficiaries living in
   care facilities to determine whether Safe Haven is operating as a conduit payee.

3. Determine whether the beneficiaries for whom Safe Haven is operating as a conduit
   payee would be better served if the care facility were selected as the representative
   payee.

4. Instruct Safe Haven to establish procedures to effectively manage SSI recipients’
   accounts to avoid excess resources.

5. Remind Safe Haven to return conserved funds in accordance with SSA’s
   instructions.

6. Instruct Safe Haven to return the $39,302 in conserved funds for the 38 beneficiaries
   we identified as no longer under its care.

7. Instruct Safe Haven to place beneficiaries’ conserved funds of $500 or more in an
   interest-bearing account or a relatively risk-free investment.

8. Seek restitution from Safe Haven for the $2,031 in unallowable representative payee
   fees.

9. Determine whether the unallowable representative payee fees meet SSA’s definition
   of misuse and take appropriate action.

10. Instruct Safe Haven to accurately report beneficiary expenditures on the annual
    Representative Payee Report.

11. Instruct Safe Haven to purchase adequate bond coverage.
Page 12 – Michael W. Grochowski

12. Instruct Safe Haven to maintain sufficient documentation for all the beneficiaries it
    serves to support that Social Security benefits are used in the best interest of the
    beneficiaries.

13. Assist Safe Haven to implement adequate segregation of duties for the
    disbursement of benefits.

14. Instruct Safe Haven to regularly meet with all beneficiaries to ascertain their current
    and foreseeable needs.

15. Instruct Safe Haven to spend at least $360 per year for each beneficiary’s personal
    allowance or inform SSA of the circumstances that prevent it from doing so.

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix D).

SAFE HAVEN COMMENTS
Safe Haven stated that it is working with SSA to implement corrective actions on all of
the audit findings.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
PII      Personally Identifiable Information
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
VA       Veterans Affairs
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include the following. 1

     Determine the beneficiary’s current needs for day-to-day living and use his or her
      payments to meet those needs.

     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

     Maintain accounting records of how the benefits are received and used.

     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount.

     Report any changes in circumstances that would affect their performance as a
      representative payee.

     Provide SSA an annual Representative Payee Report to account for benefits spent
      and invested.

     Return any payments to SSA for which the beneficiary is not entitled.

     Return conserved funds to SSA when no longer serving as the representative payee
      for the beneficiary.

     Be aware of any other income Supplemental Security Income recipients may have
      and monitor their conserved funds to ensure they do not exceed resource limits.




1
    20 C.F.R. § 404.2001 et seq. and § 416.601 et seq.
                                                                      Appendix C

Scope and Methodology
Our audit covered the period October 1, 2008 to September 30, 2009. To accomplish
our objectives, we:

•   Reviewed applicable Federal laws and regulations as well as Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.

•   Reviewed prior work performed by the Office of the Inspector General and SSA in
    the representative payee area.

•   Contacted the SSA Kansas City Regional Office and the Scottsbluff, Nebraska, Field
    Office to obtain background information and prior audits regarding Safe Haven.

•   Compared and reconciled the payee’s list of SSA beneficiaries in Safe Haven’s care
    to a list obtained from SSA’s Representative Payee System.

•   Reviewed Safe Haven’s internal controls over the receipt and disbursement of Social
    Security benefits.

•   Selected a sample of 50 beneficiaries in the representative payee’s care during the
    audit period and performed the following tests.

    o Compared and reconciled benefit amounts received according to Safe Haven’s
      records to benefit amounts paid according to SSA’s records.
    o Reviewed Safe Haven’s accounting records to determine whether benefits were
      properly spent or conserved on the individual’s behalf.
    o Traced all recorded expenses to available source documents and examined the
      documentation for reasonableness and authenticity.

•   Reconciled bank records and Safe Haven’s records for all individuals in Safe
    Haven’s collective account.

•   Interviewed a sample of 10 beneficiaries to determine whether their basic needs
    were being met and observed their living conditions.

•   Reviewed the current Representative Payee Accounting Reports for 21 of the
    50 beneficiaries sampled to determine whether Safe Haven properly reported to
    SSA how their benefits were used.




                                           C-1
•   Reviewed data extracts from SSA’s systems to determine whether payments were
    sent to Safe Haven when Safe Haven was not the beneficiary’s official
    representative payee.

We performed our fieldwork for this review in Scottsbluff, Nebraska, and Kansas City,
Missouri, between November 2009 and March 2010. We tested the data obtained for
our audit and determined them to be sufficiently reliable to meet our objective. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                          C-2
                  Appendix D

Agency Comments
August 19, 2010

Subject: Fee-for-Service Representative Payee in Scottsbluff, Nebraska - Response Signed Draft Report
(A-07-10-21062) - Kansas City Response



To:        Inspector General

From:      Regional Commissioner
           Kansas City Region

Subject:   OIG Report: Fee-for-Service Representative Payee in Scottsbluff, Nebraska – Response

Thank you for the opportunity to comment on the FFS Representative Payee draft report. The
Scottsbluff field office has been holding regular meetings and educational sessions with Safe Haven
representatives both prior to and after the audit. Based on the results of the audit, a meeting with Safe
Haven and the field office manager has been scheduled for Monday, September 13th, to further
facilitate payee education and implementation of the audit recommendations. If Safe Haven cannot
meet SSA requirements, new payees will be selected for the individuals they currently serve. Our
responses to the individual audit recommendations are listed below.

Recommendation 1 - Refrain from placing additional beneficiaries with Safe Haven until the
representative payee has implemented corrective actions to ensure Social Security benefits are properly
used and accounted for, the disbursement of Social Security benefits is safeguarded, and the needs of
beneficiaries are being met. If these corrective actions are not implemented timely, SSA should place
this representative payee’s beneficiaries with a new representative payee.
        • We agree with this recommendation. On April 12, 2010, the Area Director’s office notified
            field office managers to stop selecting Safe Haven as representative payee.

Recommendation 2 - Review Safe Haven’s management of SSA benefits for the 255 beneficiaries
living in care facilities to determine whether Safe Haven is operating as a conduit payee.
        • We agree with this recommendation. The Scottsbluff field office is reviewing all 255
            beneficiaries to determine if Safe Haven is acting as a conduit payee. As part of this review,
            the field office is determining capability for all beneficiaries/recipients currently residing in
            care facilities, and will take appropriate action based on the findings. This is an ongoing
            process.

Recommendation 3 - Determine whether the beneficiaries for whom Safe Haven is operating as a
conduit payee would be better served if the care facility were selected as the representative payee.
       • We agree with this recommendation. In relation to Recommendation 2, where a conduit
           payee exists for all incapable beneficiaries/recipients, the office is working with the care
           facility to determine if that facility should be payee, and making the necessary changes.

Recommendation 4 - Instruct Safe Haven to establish procedures to effectively manage Supplemental
Security Income recipients’ accounts to avoid excess resources.
       • We agree with this recommendation. The Scottsbluff field office previously provided
           training/education to Safe Haven on SSI income and resources. During the September 13th

                                                    D-1
           meeting, the field office will provide additional training, including assistance to the payee
           in establishing a process to notify SSA in the event a beneficiary is close to the resource
           limit or has a change in income.

Recommendation 5 - Remind Safe Haven to return conserved funds in accordance with SSA’s
instructions.
        • We agree with this recommendation. As of April 1, 2010, Safe Haven had remitted
            $90,240.92 in conserved funds and overpayments. The Scottsbluff field office continues to
            work with Safe Haven to ensure all conserved funds are returned. Additional information
            and reminders will be discussed during the September 13th meeting.

Recommendation 6 - Instruct Safe Haven to return the $39,302 in conserved funds for the 38
beneficiaries we identified as no longer under its care.
       • We agree with this recommendation. The field office has instructed Safe Haven to return
            these identified conserved funds prior to the September 13th meeting.

Recommendation 7 - Instruct Safe Haven to place beneficiaries’ conserved funds of $500 or more in
an interest-bearing account or a relatively risk-free investment.
        • We agree with this recommendation. This training and instruction will be reinforced during
            the September 13th meeting. During the meeting, we will work with Safe Haven on a
            deadline for completing this action.

Recommendation 8 - Seek restitution from Safe Haven for the $2,031 in unallowable representative
payee fees.
       • We agree with this recommendation. Upon receiving photocopies of the fee checks, the
            Scottsbluff field office prepared the notice to Safe Haven, instructing them to return the
            unallowable fees. That notice is currently being reviewed by the regional office and will be
            released prior to August 27th.

 Recommendation 9 - Determine whether the unallowable representative payee fees meet SSA’s
definition of misuse and take appropriate action.
        • We agree with this recommendation. The Scottsbluff field office is currently reviewing all
            beneficiaries records for possible misuse. If misuse is found, we will take appropriate
            actions to change payees, reconcile funds, etc.

Recommendation 10 - Instruct Safe Haven to accurately report beneficiary expenditures on the annual
Representative Payee Report.
       • We agree with this recommendation. The Scottsbluff field office will provide refresher
          training during the September 13th meeting.

Recommendation 11 - Instruct Safe Haven to purchase adequate bond coverage.
     • We agree with this recommendation. The Scottsbluff field office has previously worked
        with Safe Haven to ensure they have adequate bond coverage. We received verification of a
        corrected bond as of June 1, 2010.



                                                   D-2
Recommendation 12 - Instruct Safe Haven to maintain sufficient documentation for all the
beneficiaries it serves to support that Social Security benefits are used in the best interest of the
beneficiaries.
       • We agree with this recommendation. The Scottsbluff field office has been working with
            Safe Haven on this issue and will provide additional educational training on September 13,
            on proper documentation.

Recommendation 13 - Assist Safe Haven to implement adequate segregation of duties for the
disbursement of benefits.
       • We agree with this recommendation. The Scottsbluff field office has been working with
          Safe Haven on this issue and will continue to provide guidance as needed. We will reiterate
          during the September 13th meeting the importance of establishing adequate segregation of
          duties.

Recommendation 14 - Instruct Safe Haven to regularly meet with all beneficiaries to ascertain their
current and foreseeable needs.
        • We agree with this recommendation. The Scottsbluff field office has been working with
           Safe Haven on this issue and will ensure they have a plan in place prior to the September
           13th meeting.

Recommendation 15 - Instruct Safe Haven to spend at least $360 per year for each beneficiary’s
personal allowance or inform SSA of the circumstances that prevent it from doing so.
       • We agree with this recommendation. The Scottsbluff field office has been working with
            Safe Haven on this issue and will provide additional education and guidance to Safe Haven
            on the proper use of benefits and personal allowance spending and documentation during
            the September 13, meeting.

If you have any questions, please contact me at 816-936-5700. If your staff needs additional
information or assistance, they may contact Kathy Smith, Center for Programs Support, at 816-936-
5643 or Shelli Reicks, Center for Programs Support, at 816-936-5655.

                                                /s/
                                       Michael W. Grochowski




                                                 D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division

   Ken Bennett, Information Technology Specialist

Acknowledgments

In addition to those named above:

   Carol Cockrell, Evaluator
   Lucas Elwood, Auditor
   Jesse Card, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-07-10-21062.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
